   June 25, 2003




Acquisition


Administration of
Performance-Based Payments
Made to Defense Contractors
(D-2003-106)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
ACO                   Administrative Contracting Officer
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DLA                   Defense Logistics Agency
FAR                   Federal Acquisition Regulation
MOCAS                 Mechanization of Contract Administration Services
PBPs                  Performance-Based Payments
PCO                   Procuring Contracting Officer
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
          Office of the Inspector General of the Department of Defense
Report No. D-2003-106                                                       June 25, 2003
   (Project No. D2001CK-0061)

               Administration of Performance-Based Payments
                       Made to Defense Contractors

                                Executive Summary

Who Should Read This Report and Why? Acquisition policy makers and staff that
ensure that performance-based payments are used effectively should read this report.
These personnel include program managers, procuring contracting officers, contracting
officer representatives, administrative contracting officers, technical specialists, and
Defense Contract Audit Agency auditors. This report assesses the challenges DoD
personnel faced in implementing the use of performance-based payments to acquire
supplies and services on fixed-price contracts.

Background. The Federal Acquisition Streamlining Act of 1994 authorized the
expanded use of performance-based payments. Performance-based payments allow DoD
to pay the contractor based upon demonstrated performance rather than incurred costs.
The performance-based payments include profit and can significantly increase the
contractor’s cash flow; however, poor performance can significantly reduce the
contractor’s cash flow. The Government prefers to use performance-based payments for
contract financing on definitized fixed-price contracts for noncommercial purchases.
However, the contracting officer and the contractor must agree to use the financing
method. Federal Acquisition Regulation Subpart 32.10, “Performance-Based Payments,”
prescribes performance-based payments policies and procedures. The Under Secretary of
Defense for Acquisition, Technology, and Logistics stated that performance-based
payments should become the prevalent form of fixed-price contract financing by
FY 2005. In November 2000, the Under Secretary issued guidance requiring 25 percent
of fixed-price contracts valued at $2 million or more to use performance-based payments
financing by FY 2002. Using the Defense Finance and Accounting Service
Mechanization of Contract Administration Services system, we identified a universe of
201 contracts, valued at about $54.9 billion, on which performance-based payments were
made as of January 2001.

Results. DoD did not adequately administer contracts with approximately $5.5 billion of
performance-based payments. Specifically, 43 of 67 contracts reviewed with
performance-based payments had poorly defined event schedules, which allowed for
payments for contract award and advance payment; lacked performance criteria; or did
not document event dependence. Event dependence requires a determination of whether
events are dependent upon the completion of other events before receiving payment. As
a result of inadequate performance-based payments administration, $4.1 billion
(including a possible $900 million in accelerated payments) of the $5.5 billion in
performance-based payments lacked adequate documentation to ensure the payments
were for demonstrated performance. The Under Secretary of Defense for Acquisition,
Technology, and Logistics needs to: establish performance measures to assess the
benefits of using performance-based payments; issue mandatory guidance to ensure that
DoD goals for performance-based payments are attained; and require procuring
contracting officers to obtain, document, and use input from Defense Contract
Management Agency and Defense Contract Audit Agency personnel to ensure payments
are commensurate with performance. (See the Finding section for the detailed
recommendations.) Implementing the corrective actions will improve the management
controls over performance-based payments and compliance with related contract
financing policies.

Management Comments. The Director, Defense Procurement and Acquisition Policy
stated many of the contracts in the report were negotiated prior to revised guidance, a
user’s guide, and an on-line training course for performance-based payments. The
Director concurred in principle with the recommendations. The Director proposed to
conduct an assessment of the benefits of expanded performance-based payments
implementation. The assessment will address contracting officer compliance with
performance-based payment policies and determine whether any changes are needed to
those policies, the Performance-Based Payment User’s Guide, or training resources based
upon input obtained from the Defense Contract Management Agency, the Defense
Contract Audit Agency, contractors, and other interested parties. The Director did not
believe the User’s Guide should be mandatory and made an alternative proposal to amend
the User’s Guide to remind contracting officers of their responsibility under the Federal
Acquisition Regulation to document their evaluation of performance-based payments.
The Director stated this documentation would also evaluate whether contracting officers
used field input from the Defense Contract Management Agency or the Defense Contract
Audit Agency. The Director’s office subsequently provided that the assessment will
begin in September 2003 with an anticipated completion date of April 2004. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Audit Response. The Director, Defense Procurement and Acquisition Policy comments
were generally responsive. However, the comments did not address the establishment of
performance measures. We request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics provide by July 25, 2003, additional comments on the
recommendation relating to the establishment of performance measures.




                                           ii
Table of Contents
Executive Summary                                                             i
Background                                                                    1
Objectives                                                                    2

Finding
     Adequacy of the DoD Administration of
       Performance-Based Payments                                             3


Appendixes
     A. Scope and Methodology                                                13
          Management Control Program Review                                  14
          Prior Coverage                                                     14
     B. Contracts Reviewed                                                   15
     C. Questionable Performance-Based Payments Administration               20
     D. Value of Questionable Performance-Based Payments Events              22
     E. Report Distribution                                                  24

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   27
Background
         Significance of Performance-Based Payments. Performance-based payments
         (PBPs) are a contract financing method that allows the Government to make
         payments to a contractor on fixed-price type contracts1 for noncommercial
         purchases. PBPs financing requires agreement between the Government and the
         contractor. PBPs differ from progress payments. Measurable events and
         performance criteria define PBPs, whereas incurred contractor costs define
         progress payments. The Under Secretary of Defense for Acquisition,
         Technology, and Logistics (USD[AT&L]) stated that using PBPs as the principal
         method of contract financing under fixed-price contracts for noncommercial
         purchases has potential benefits for both the Government and contractors.
         Further, under PBPs financing, contractors do not have to create or maintain a
         Government compliant cost accounting system and the Government does not have
         to monitor the contractor’s system. Also, the benefits include enhancing technical
         and schedule focus, broadening contractor participation, reducing the cost of
         administration and streamlining oversight, enhancing and reinforcing the roles of
         program managers and integrated teams, increasing contractor cash flow, and
         linking payment to performance.

         Requirement for Performance-Based Payments. The Federal Acquisition
         Streamlining Act of 1994, codified in section 2307, title 10, United States Code,
         “Contract Financing,” authorized the expanded use of PBPs financing when
         associating performance with quantifiable measurements. The Federal
         Acquisition Regulation (FAR) Part 32, “Contract Financing,” provides criteria for
         implementing contract financing payment methods.

         Establishing DoD Policy. On November 13, 2000, USD(AT&L) issued a
         memorandum, “Use of Performance-Based Payments (PBP),” that stated in
         FY 1999 DoD identified 195 PBPs contract actions valued at $5.6 billion. The
         USD(AT&L) memorandum established goals requiring 25 percent of fixed-price
         contracts valued at $2 million or more to use PBPs financing by FY 2002, and
         that PBPs financing become the prevalent form of fixed-price contract financing
         by FY 2005.

         Estimating the Increase in Cash Flow. USD(AT&L) stated that PBPs increase
         contractor cash flow by 29 percent because payments can be up to 90 percent of
         the contract price. In the USD(AT&L) example, a fixed-price contract for
         $10 million that has a potential profit of 15 percent can be financed as much as
         $9 million. The USD(AT&L) example further illustrates that by using the
         progress payment rate of 80 percent, traditional cost-based progress payments
         could amount to about $7 million (contract price [$10 million] divided by the

1
 Fixed-priced type contracts have a firm price. A firm-fixed-price contract places maximum risk on the
contractor with responsibility for all costs and resulting profit or loss. The contract type provides
maximum incentive for the contractor to control costs and perform effectively and imposes a minimum
administrative burden on the contracting parties. Contracting officers use a firm-fixed-price contract for
supplies or services when functional specifications are definite and prices are fair and reasonable.



                                                      1
        profit percentage [1.15] multiplied by the progress payment percentage [.80]).
        The difference in cash flow over the life of the contract is $2 million or a
        29 percent improvement with PBPs over traditional progress payments.

        Planning for the Use of Performance-Based Payments. USD(AT&L) stated
        that effective planning is key to success. Decisions and agreements on PBPs must
        be reached in the contract formation phase. DoD and the contractor must identify
        and agree on events or accomplishments used as a basis for contract financing
        payments, methods for measuring or confirming completion, and values for the
        events. Setting valuations for selected events, a unique requirement under a PBPs
        approach, has a beneficial impact in clearly setting technical and schedule success
        as the key to contract goals.

        Responsibility for Defense Contracting. The procuring contracting officer
        (PCO) negotiates the PBPs terms with the contractor and may delegate
        administrative responsibilities, such as PBPs verification, to the administrative
        contracting officer (ACO). The ACO is generally an employee of the Defense
        Contract Management Agency (DCMA). The USD(AT&L) guidance document,
        the “User’s Guide to Performance-Based Payments” (the User’s Guide)
        Revision 1, November 30, 2001, states that the Government team has access to
        the valuable experience of DCMA and Defense Contract Audit Agency (DCAA)
        personnel. The experience of DCMA and DCAA personnel can help the PCO and
        the program manager select and define appropriate PBP events. The Government
        team that is responsible for awarding the contract consists of the PCO, the
        program manager, and technical and logistics advisors. The User’s Guide
        encourages contracting officers to seek DCMA and DCAA input and to keep
        them involved when negotiating and structuring contract financing.

        Use of PBPs Contracts. Through the Defense Finance and Accounting Service
        Mechanization of Contract Administration Services (MOCAS), we identified a
        universe of 201 contracts with PBPs,2 valued at about $54.9 billion as of
        January 2001.

Objectives
        The overall audit objective was to determine whether DoD procedures were
        adequate for administering PBPs to Defense contractors. We reviewed how DoD
        negotiated, verified, and paid PBPs. We also reviewed the management control
        program as it related to the overall objective. See Appendix A for a discussion of
        the audit scope and methodology, our review of the management control program,
        and a summary of prior audit coverage.




2
 The total contract value may overstate the actual value of the PBPs because PBPs only represent contract
line items in some contracts.



                                                    2
           Adequacy of the DoD Administration of
           Performance-Based Payments
           DoD did not adequately administer contracts with about $5.5 billion in
           PBPs. Specifically, 67 contracts with PBPs were reviewed and 43 had
           poorly defined event schedules, which allowed for payments with no
           performance; lacked performance criteria; or did not document event
           dependence. The administration of PBPs was not adequate because
           USD(AT&L) did not:

                  •   establish performance measures for PBPs implementation and
                      effectiveness,

                  •   issue mandatory guidance to ensure that PBPs financing is
                      properly and uniformly implemented,

                  •   require the PCOs to consult with DCMA or DCAA personnel
                      before finalizing PBPs events and criteria, and

                  •   develop a comprehensive training program for contracting
                      officers on use of PBPs contract financing.

           As a result of inadequate PBPs administration, DoD assumed a greater
           share of the financial risk than anticipated. Specifically, contracting
           officers scheduled $4.1 billion in PBPs that did not specifically relate to
           demonstrated performance. Additionally, this could allow contracting
           officers to accelerate payments by an estimated $900 million.

DoD Administration of Performance-Based Payments
    DoD did not adequately administer contracts with about $5.5 billion in PBPs.
    Specifically, 67 contracts with PBPs were reviewed (Appendix B) and 43 had
    poorly defined event schedules, which:
           •   allowed payments for contract award,

           •   allowed an advance payment without appropriate approval,

           •   lacked performance criteria, and

           •   did not document event dependence, or

           •   contained a combination of these conditions.

    Table 1 summarizes the results of contracts reviewed from the Army, the Navy,
    the Air Force, and the Defense Logistics Agency (DLA) with PBPs.




                                         3
                          Table 1. Results for PBPs Contracts Reviewed
                                            ($ millions)
                                                                 Contracts With Inadequate
                                Contracts Reviewed1                   Administration2
                               Number         Value              Number            Value
                Army              11           $ 4,741.0             8              $2,951.2
                Navy              34           14,539.0             24                1,920.8
                Air Force         18           19,033.4              7                  584.9
                DLA                4                 3.9             4                    3.9
                 Total            67          $38,317.3             43              $5,460.8
            1
             See Appendix B for specific contracts reviewed.
            2
             See Appendix C for details on contracts with deficiencies.



         Contracting officers contributed to PBP administration weaknesses on
         43 contracts by not adhering to FAR Subpart 32.10, “Performance-Based
         Payments” provisions on contract award, advance payments, event completion,
         and event dependence. Event dependence requires a determination of whether
         events are dependent upon the completion of other events before receiving
         payment. The 43 contracts had about $4.1 billion in questionable PBPs events for
         contract award, advance payments, event completion, event dependence, or a
         combination of conditions (see Appendix D).

         Contract Award. On eight contracts with questionable PBPs events, DoD paid
         prime contractors $34.4 million in PBPs, as presented in Table 2, based on the
         award of the contract. FAR Subpart 32.10 states that the signing of contracts or
         modifications, the exercise of options, or other such actions must not be PBPs
         events or criteria, and that PBPs shall not be used in contracts that provide for
         other methods of contract financing, except advance payments in accordance with
         FAR Subpart 32.43 or guaranteed loans in accordance with FAR Subpart 32.3.

         The following are examples of contracts with event schedules that allowed the
         contractor to receive payment for contract award.
                   •     On contract DAAH23-98-C-0008, which was to acquire 207 fire
                         control radar systems for aircraft with maintenance from the Longbow
                         Limited Liability Company for $565.8 million, the PCO scheduled the
                         first event as the contract award in December 1997 and the contractor
                         was paid $11.3 million.

                   •     On contract N00019-97-C-0046, which was to obtain services from the
                         McDonnell Douglas Corporation to remanufacture 45 AV-8 aircraft
                         for $566.7 million, the PCO scheduled the first PBPs event in each


3
 FAR Subpart 32.4 states that the agency shall authorize advance payments sparingly. Advance payments
are the least preferred method of contract financing and generally should not be authorized if other types of
financing are reasonably available to the contractor.



                                                      4
           year of the multiyear contract as a contract award. The payments
           totaling $6.7 million were made in December 1999, January 2000,
           January 2001, and July 2001.

                           Table 2. Contract Awards
                                         Payment
               Contract                 ($ millions)          Contract Action
        DAAH23-98-C-0008                  $11.3               Contract Award
        DAAB07-00-C-L995                     2.6              Contract Award
        N00019-97-C-0027                     5.1              Contract Award
        N00019-97-C-0046                     6.7              Contract Award
        N65236-97-C-5603                     0.2              Contract Award
        N00383-98-G-001A*                    7.0              Contract Award
        N00164-99-C-0079                     0.2              Contract Award
        N00024-00-C-5399                     1.3              Contract Award
                 Total                    $34.4

        *PBPs were on specific delivery orders on the basic contract.



Advance Payment. On contract F34601-95-C-0538 for services costing
$10.7 million from Sabreliner Corporation to repair one C-20G aircraft, the PCO
paid the prime contractor a $2.2 million advance payment over ACO objections.
The subcontractor required the payment before the repair work could begin. FAR
Subpart 32.4 states that contracting officers must obtain agency permission to
make advance payments. However, we could not find evidence that the PCO had
obtained the proper permission to make the advance payment.

Event Completion. On the 43 contracts with questionable PBPs events,
contracting officers did not follow event completion guidance on 24 contracts (see
Appendix C). Specifically, the contracting officers did not document event
descriptions or event completion requirements. FAR Subpart 32.10 states that
each event or performance criterion that will trigger a finance payment must be
identified in the contract along with a description of what constitutes successful
performance of the event or attainment of the performance criterion. The
requirement provides a means to measure contractor performance and to justify
PBPs. The following examples provided no means to measure contractor
performance and to justify PBPs.

       •   On contract N00019-97-C-0027 to acquire 172 missiles for
           $86.2 million from the Raytheon Company, PBPs events included
           delivering the plan, establishing baselines, contract awards, testing
           equipment, and delivering missiles. However, the contract did not
           include a description of what constituted successful performance of
           each event.

       •   On contract N00019-99-D-1016 for services costing $419.1 million
           from the Raytheon Company to remanufacture 817 missiles, PBPs

                                         5
               events included issuing the plan for missiles remanufacture, inducting
               missiles, submitting requirements, placing letter subcontracts, leasing a
               building, expanding and occupying a building, subcontracting critical
               supplies, and delivering missiles. However, the contract did not
               include a description of what constituted successful performance of
               each event.

           •   On delivery order 0001 under contract N00039-00-F-3153 for 14 data
               management systems costing $4.9 million from Sherikon Inc., PBPs
               events include issuing purchase orders for materials, receiving vendor
               hardware, and delivering cabinets. However, the PBPs event schedule
               did not describe the contractor performance necessary to complete the
               events.

    Event Dependence. The contracting officers did not follow event dependence
    guidance on 35 contracts with questionable PBPs events (see Appendix C).
    Specifically, the contracting officers did not document whether events were
    dependent upon the completion of other events before contractors received
    payment. FAR Subpart 32.10 states that event schedules must document whether
    the event is cumulative (dependent on other events). The FAR requirement
    allows the Government and the contractor to identify an event dependent on other
    events so that the contractor does not receive payment before completing a
    dependent event. A severable (independent) event stands alone and the contractor
    can receive payment after completing the event.

           •   On contract N00024-00-C-5482, which acquired 13 guided missile
               launching systems from Raytheon Company for $124.8 million, the
               event schedule did not identify dependent and independent events.
               Events listed in the schedule included loading requirements and
               placing purchase orders. The event schedule did not identify
               dependent events in performance milestones.

           •   Contract F04606-98-D-0045, which acquired two aircraft transmitters
               and manuals through three delivery orders from the Harris Corporation
               for $3.3 million in PBPs, also included event schedules that did not
               identify dependent and independent events. The transmitter and
               manuals events, as listed in the schedules, included preparing the
               proposal, ordering the tube, ordering material, assembling the
               transmitter, testing the transmitter, integrating the transmitter, and final
               testing. However, the transmitter and manuals event schedules did not
               identify dependent events in performance milestones.

Performance-Based Payment Controls
    PBPs administration was not adequate because USD(AT&L) did not:

           •   establish performance measures for PBPs implementation and
               effectiveness,

           •   issue mandatory guidance to ensure that PBPs financing is properly
               and uniformly implemented,



                                          6
                 •   require the PCOs to consult with DCMA or DCAA personnel before
                     finalizing PBPs events and criteria, and

                 •   develop a comprehensive training program for contracting officers on
                     use of PBPs contract financing.

        PBPs Oversight. On November 13, 2000, USD(AT&L) issued guidance that
        established goals for PBPs implementation.4 However, the guidance did not
        establish performance measures to track how PBPs implementation would:

                 •   enhance technical and schedule focus,

                 •   broaden contractor participation,

                 •   reduce administration costs and streamline oversight,

                 •   enhance and reinforce the roles of program managers and integrated
                     teams,

                 •   improve contractor cash flow, and

                 •   link payment to performance.

        Use of PBPs in fixed-price contracts appears to be increasing. In FY 1999,
        USD(AT&L) identified 195 contract actions with PBPs totaling $5.6 billion.
        Using the Defense Finance and Accounting Service MOCAS system, we
        identified a universe of 201 contracts, valued at about $54.9 billion, on which
        PBPs of $23.8 billion were made as of January 2001. However, as of
        January 2003, USD(AT&L) and DCMA had not assessed the benefits of PBPs
        implementation. USD(AT&L) should establish a mechanism to monitor the
        effectiveness of PBPs implementation through 2005. Specifically, the mechanism
        should monitor adherence to policy, recommend policy changes, and assess the
        benefits of using PBPs.

        Mandatory PBPs Guidance. In FY 2000, the FAR expanded the use of PBPs to
        competitive fixed-price type contracts for noncommercial purchases. Previously,
        DoD had the authority to use PBPs under sole-source fixed-price contracts. In
        January 2001, USD(AT&L) issued the User’s Guide to encourage contracting
        officers to use PBPs as the preferred fixed-price contract financing method for
        DoD. However, USD(AT&L) did not mandate that the User’s Guide be followed
        to administer PBPs. Consequently, the distribution of the User’s Guide did not
        ensure that PBPs implementation would meet DoD goals. Because DoD intends
        to make PBPs financing the primary means to pay contractors on fixed-price
        contracts for noncommercial purchases, USD(AT&L) should incorporate required
        guidance on PBPs into one manual, and solicit comments from a sample of PCOs
        and ACOs, who would implement the requirements, prior to its issuance.

        ACO and DCAA Assistance. PCOs did not effectively use DCMA or DCAA
        personnel before finalizing PBPs events and criteria. However, in the User’s

4
 The USD(AT&L) memorandum states that PBPs financing should account for 25 percent of fixed-price
contracts valued at $2 million or more by FY 2002 and become the prevalent form of fixed-price contract
financing by FY 2005.


                                                   7
Guide, USD(AT&L) states that the ACOs and DCAA personnel should have
special familiarity with the program and the contractor’s operation and
organization. The User’s Guide provides the following rationale for the PCOs
using the ACOs and DCAA.

       •    ACO and DCAA experience will provide the PCO with useful
            information for selecting and defining PBPs events.

       •    ACO and DCAA personnel can assist the PCO in developing the PBPs
            financing template.

       •    On-site ACOs provide the best resource for verifying performance.

Table 3 summarizes the frequency that PCOs did not request DCMA and DCAA
assistance on the 43 contracts with administration problems.


      Table 3. DCMA and DCAA Assistance Not Requested on
          Contracts With PBPs Administration Problems
                                    DCMA Not               DCAA Not
                  Contracts         Requested              Requested
    Army              8                   1                    6
    Navy             24                  15                   21
    Air Force         7                   2                    5
    DLA               4                   4                    0
    Total            43                  22                   32


        Using Administrative Contracting Officers. PCOs did not seek or use
advice from ACOs in establishing PBPs in 22 contracts with questionable PBPs
events. PCOs are not required to obtain ACO input when selecting and defining
PBP events. However, the ACOs administer the contracts and must certify that
the contractors have demonstrated the required performance. As a result, the
ACOs may certify payments without knowing whether the PBPs were in the
Government’s best interest. Therefore, PCOs should obtain ACO written input
before selecting and defining events and document any reasons for not using ACO
input. For example, on delivery order EF03 under contract N00383-98-G-001A,
which acquired 71 radars and 47 radar kits from Raytheon Company for
$210.7 million, the PBPs event schedule allowed the contractor 45 percent of the
contract value for production expenses and liquidated the remaining 55 percent
through a series of deliveries. As a result, the contractor received payments worth
about one-half of the contract value after completing 36 of 154 PBP events
(23 percent). The ACO challenged the payment schedule; however, the PCO
approved it.

       Using the Defense Contract Audit Agency. DCAA personnel were not
requested to provide input for 32 contracts with questionable PBPs events. The
User’s Guide encourages PCOs to seek the input of DCAA representatives and to
continue using DCAA representatives when negotiating and structuring the
contract finance template. In July 2001, DCAA issued internal guidance to help
DoD achieve its goal of using PBPs as the predominant form of contract financing


                                     8
        on fixed-priced contracts by 2005. The guidance stated that DCAA auditors
        could identify events, value events, conduct post payment verifications, and
        assess the contractor’s financial strength. We believe USD(AT&L) should issue
        guidance that reinforces the use of DCAA expertise.

        Training Contracting Officers. Contracting officers (PCOs and ACOs) on 50 of
        the contracts reviewed (Table 4) stated more PBPs training was needed. On the
        50 contracts requiring more training, 34 had inadequate PBPs administration.
        Guidance and focused training on the selection and valuation of meaningful
        payment events is critical for effective use of PBPs.

                     Table 4. Contracting Officers Needing Training
                                            Training          Inadequate Administration
                         Contracts          Needed               and Training Needed
        Army                 11                11                           8
        Navy                 34                25                          18
        Air Force            18                10                           4
        DLA                   4                 4                           4
        Total                67                50                          34


        The following examples on earned value management, commercial item purchase,
        and payments commensurate with performance indicate a need for more training
        for contracting officers.

                 Earned Value Management. In three contracts with PBPs totaling
        $74.5 million,5 the PCOs inappropriately used the earned value management
        system rather than establishing PBPs event schedules. FAR Subpart 32.10 states
        that PBPs must be specifically described events or some measurable performance
        criteria. The earned value management system requires the contracting officer to
        approve a baseline for the amount of effort and time required to complete a task,
        such as labor hours consumed. Also, the earned value management system allows
        for variation in payments, whereas PBPs require a fixed price for performance.
        Therefore, the contracts using the earned value management system did not
        establish appropriate events and prices to measure performance.

                Commercial Item Purchase. The PCO inappropriately mixed PBPs and
        commercial item clauses in contract N00039-99-C-2212 to acquire 10 radar
        surveillance systems from CEA Technologies for $2.7 million in PBPs.
        FAR Subpart 32.10 states that PBPs contract financing is for noncommercial
        purchases and no other form of contract financing can be used with PBPs
        financing, except that advance payments in accordance with FAR Subpart 32.4 or
        guaranteed loans in accordance with FAR Subpart 32.3 may be used.

               Payments Commensurate With Performance. On contract
        DAAH01-98-C-0013 for the acquisition of 2,720 Tube-launched Optically-
        tracked Wire-guided missiles from Raytheon Missiles Systems for $51.4 million,
        PBPs events did not show measurable performance. FAR Subpart 32.10 states

5
Contract DAAH01-99-C-0085 for $37.5 million, delivery order 0001 for $23.4 million under contract
DAAB07-00-D-H002, and contract N00024-99-C-5108 for $13.6 million used earned value management.


                                                9
    that PBPs must be commensurate with contractor performance. The event
    schedule stated that the contractor may invoice for 50 percent of the contract
    price, less progress payments made, upon the placement of 9 of 10 purchase
    orders. The contractor may then liquidate the remaining balance upon missile
    delivery. As a result, PBPs were not commensurate with performance as the
    contractor received 50 percent of the contract value while the Army received no
    missiles.

Using Performance-Based Payments
    As a result of inadequate PBPs administration, DoD assumed a greater share of
    the financial risk than anticipated. Specifically, contracting officers authorized
    $4.1 billion in PBPs without adequate documentation to prove the payments were
    for demonstrated performance. Further, of the 67 PBPs contracts reviewed,
    43 did not adequately focus attention on linking payments to contractor
    performance. The 43 contracts also did not reinforce the importance of technical
    and schedule accomplishment. Rather, PBPs schedules reflected payments for:

           •   contract awards,

           •   an advance payment without proper approval,

           •   events with no measurable performance criteria, and

           •   events that may have been paid too soon.

    Additionally, inadequate PBPs administration could allow contracting officers to
    accelerate $900 million in payments to contractors. The PBPs financing on
    $4.1 billion is $3.7 billion ($4.1 billion multiplied by 90 percent) using
    USD(AT&L) guidance. Assuming progress payments at a 15 percent profit, the
    contractor would be entitled to 80 percent of incurred costs or $2.8 billion
    ($4.1 billion divided by 1.15 equals $3.5 billion, $3.5 billion multiplied by
    80 percent equals $2.8 billion). Therefore, the event schedules could provide the
    contractors with accelerated payments of approximately $900 million ($3.7 billion
    less $2.8 billion). FAR Subpart 32.10 states that accelerated payments represent a
    cost to the Government because the funds must be borrowed to make the
    payments. The costs cannot be calculated because the dates those payments
    would be made using progress payments is not known.

Actions Taken by Management
    Management Assessment. The Director, Defense Procurement and Acquisition
    Policy stated that many of the contracts in the report were negotiated prior to
    revised guidance, a user’s guide, and an on-line training course for performance-
    based payments. Many of the contracts were awarded before the March 2000
    FAR revisions to Part 32.10. Indeed, our selection of the 67 contracts for review
    was based on a judgment sample of available PBPs contracts as of January 2001.
    Consequently, USD(AT&L) personnel believe that within a few years a
    subsequent review of PBPs contracts issued after 2001 may not have the problems
    found in this report.



                                        10
    PBPs Training Initiatives. Prior to the issuance of this report, USD(AT&L),
    DCMA, and Air Force personnel informed us they had taken steps to improve
    PBPs training. Specifically, USD(AT&L) personnel stated that an online PBPs
    course with the Defense Acquisition University had been developed in
    January 2002. DCMA personnel stated that a training course that included PBPs
    was developed for its personnel. Also, Air Force personnel stated they have
    training initiatives underway to supplement PBPs guidance. As a result, we
    believe that the management initiatives on training are sufficient to address the
    problems we found.

Conclusion
    This report provides the acquisition workforce with an assessment of PBPs.
    There is usually a learning curve involved when implementing a new procedure
    and mistakes are made. However, lessons are learned and guidance becomes
    more focused. PBPs have the potential to improve the acquisition process on
    fixed-price contracts for noncommercial purchases. The use of PBPs allows the
    Government to base payments on measurable contractor performance that is
    documented in the event schedules. The contractor can receive accelerated
    payments that are higher than progress payments. Also, the contractor does not
    need a Government approved cost accounting system and the Government is not
    required to review the cost accounting system. However, DoD administration of
    PBPs was not sufficient to ensure that $4.1 billion in PBPs (including a possible
    $900 million in accelerated payments) were for demonstrated performance.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense for Acquisition, Technology,
    and Logistics:

           1. Establish a working group to monitor the effectiveness of expanded
    performance-based payments implementation through 2005. The team
    should monitor adherence to policy, recommend policy changes, establish
    performance measures, and assess the benefits of using performance-based
    payments.

            Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comment. The Director, Defense Procurement and Acquisition Policy concurred
    in principle and will conduct an assessment of the benefits of expanded
    performance-based payments implementation. The assessment will address
    contracting officer compliance with Part 32.10 of the Federal Acquisition
    Regulation on performance-based payments policies and whether any changes are
    needed to those policies, the Performance-Based Payments User’s Guide, or
    training resources. The assessment would be based upon input obtained from
    procuring contracting officers, the Defense Contract Management Agency, the
    Defense Contract Audit Agency, contractors, and other interested parties. The
    Director’s office subsequently provided that the assessment will begin in
    September 2003 with an anticipated completion date of April 2004.




                                        11
        2. Obtain and incorporate comments from procuring contracting
officers, the Defense Contract Audit Agency, and the Defense Contract
Management Agency on the User’s Guide to performance-based payments
and implement as mandatory guidance.

        Under Secretary of Defense for Acquisition, Technology, and Logistics
Comment. The Director, Defense Procurement and Acquisition Policy concurred
in part. The comments on the User’s Guide would be obtained as part of the
assessment discussed in response to Recommendation 1. However, the Director,
Defense Procurement and Acquisition Policy does not believe the User’s Guide
should be mandatory, but proposed to amend the User’s Guide to remind
contracting officers of their responsibility contained in Part 15.406-3 of the
Federal Acquisition Regulation. The Federal Acquisition Regulation requires
contracting officers to fully document their evaluation of performance-based
payments, including how they complied with the Federal Acquisition Regulation
policies, and how they did or did not use the guidance available to them in the
User’s Guide.

        3. Establish procedures requiring the procuring contracting officer to
obtain Defense Contract Management Agency and Defense Contract Audit
Agency input before finalizing the event description, event prices, and event
measurement criteria or to document the justification for not obtaining the
input. The procuring contracting officers should also document the
justification for not using Defense Contract Management Agency and
Defense Contract Audit Agency input.

        Under Secretary of Defense for Acquisition, Technology, and Logistics
Comment. The Director, Defense Procurement and Acquisition Policy concurred
in principle and as part of the assessment would solicit input on whether current
guidance needs additional emphasis regarding the use of Defense Contract
Management Agency and/or Defense Contract Audit Agency input. In addition,
the Director, Defense Procurement and Acquisition Policy would amend the
User’s Guide to remind contracting officers of their responsibilities as stated in
their response to Recommendation 2. Also, the comments stated that the User’s
Guide currently includes guidance for obtaining Defense Contract Management
Agency and Defense Contract Audit Agency input.

       Audit Response. We consider the comments from the Director, Defense
Procurement and Acquisition Policy to be responsive and meet the intent of the
recommendations, except the comments did not address the establishment of
performance measures. We request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics provide additional comments on
Recommendation 1 relating to the establishment of performance measures.




                                    12
Appendix A. Scope and Methodology
   We reviewed negotiation, verification, and payment procedures for contracts
   identified as receiving PBPs financing. We assessed DCMA procedures for
   administering contracts and reviewed contract files maintained at DCMA field
   offices. We compared contract performance events, performance criteria for
   event completion, and payment schedules to the FAR for compliance with
   regulations. We interviewed DCAA representatives and obtained DCAA
   guidance on providing assistance in administering PBPs. We contacted ACOs for
   the 70 contracts and 40 PCOs that negotiated 50 contracts.
   We performed this audit from January 2001 through March 2003 in accordance
   with generally accepted government auditing standards.
   We utilized a questionnaire to obtain negotiation, verification, and payment
   information on the contracts reviewed as well as information on negotiation
   teams, contracting officer training, and payment procedures.
   Use of Computer-Processed Data. We used MOCAS computer-processed data
   to determine the number of contracts and the dollar values of the contracts that
   received PBPs. Selection criteria specified contracts identified as PBPs in
   MOCAS that received payments in FY 1999 and FY 2000. We received three
   MOCAS lists (June 2000, August 2000, and January 2001) and matched contract
   data on the lists. About 50 percent of the contracts matched among the lists. We
   did not determine the reliability of the computer-processed data because we only
   used that data to select the PBPs contracts for review. We believe that the
   reliability of the data would not affect the audit results. We obtained the contract
   data used in this report from the actual contracts and associated contract files.
   From the 3 MOCAS lists mentioned above, we developed a universe of 201
   contracts valued at $54.9 billion. We grouped contracts by the ACO office
   responsible for administering the contracts, then clustered the contracts by state
   and ranked the states by the dollar value of the contracts. We judgmentally
   selected a sample of 70 contracts; however, during the audit 3 were found not to
   have PBPs. The remaining 67 contracts (11 Army, 34 Navy, 18 Air Force, and
   4 DLA) reviewed had an approximate MOCAS value of $39.4 billion (72 percent
   of the $54.9 billion universe). In 50 contracts, PBPs were for supplies and in
   17 contracts PBPs were for services.
   Use of Technical Assistance. We relied on assistance from members of the
   Quantitative Methods Division of the Office of the Deputy Inspector General for
   Audit to determine the method for selecting the sample.
   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. The DoD high-risk area covered in
   this report is improve processes and controls to reduce contract risk.




                                        13
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.
     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DoD management control activities over negotiation, verification,
     and payment of PBPs. Specifically, we reviewed policies, procedures,
     techniques, and mechanisms that enforce management’s directives.
     Adequacy of Management Controls. We identified material management
     control weaknesses for PBPs as defined by DoD Instruction 5010.40. DoD
     management control activities for negotiating and administering PBPs were not
     adequate to ensure that contract payment plans were fair and reasonable and based
     upon demonstrated performance. Recommendations, if implemented, will
     improve the PBPs process. We will provide a copy of the report to the office of
     USD(AT&L), through its senior management control official.

     Adequacy of Management’s Self Evaluation. DoD officials did not identify
     PBPs as an assessable unit, and, therefore, did not identify or report the material
     management control activities weaknesses identified by the audit.

Prior Coverage

General Accounting Office
     General Accounting Office Report No. GAO-01-515R, “Internal Controls: C-17
     Payment Procedures Can Be Improved,” May 30, 2001




                                          14
Appendix B. Contracts Reviewed

Army Contracts Reviewed
       As shown in Table 1, we reviewed 11 Army contracts, with PBPs valued at
       $4.7 billion, for compliance with DoD procedures for negotiating and
       administering PBPs. Of the 11 contracts, 10 were for supplies and 1 was for
       services.

                             Table B-1. Total Army Contracts

         Contract                Function          Product          Contractor           PBP
                                                                                       (millions)

DAAA09-95-C-00361, 3, 4          Supplies        Ammunition         General            $ 243.4
                                                                    Dynamics

DAAE30-95-C-00863, 4             Supplies        Ammunition         General               330.1
                                                                    Dynamics

DAAJ09-95-C-A0011, 2, 3, 4       Services        Aircraft           McDonnell           1,909.8
                                                                    Douglas

DAAH01-97-C-02092, 3             Supplies        Missiles           Raytheon              762.2

DAAH01-98-C-00131, 2, 3, 4       Supplies        Missiles           Raytheon                51.4

DAAH23-98-C-00081, 2, 3          Supplies        Radar              Longbow               565.8

DAAH01-99-C-00851, 2, 3, 4       Supplies        Radar              Raytheon                37.5

DAAB07-00-C-L9951, 3             Supplies        Terminals          Cubic                   31.4

DAAB07-00-D-E5011, 2, 3          Supplies        Computers          TRW                     88.5

DAAB07-00-D-H0021, 2, 3, 4       Supplies        Radar              Raytheon                23.4

DAAH01-00-C-01082, 3             Supplies        Missiles           Raytheon              697.5

           Total                                                                       $ 4,741.0
1
  Inadequate administration.
2
  PCOs did not consult with DCMA and/or DCAA before establishing and valuing events.
3
  Adequate PBPs training not provided.
4
  Contract had progress payments before converting to PBPs.




                                              15
Navy Contracts Reviewed
       As shown in Table 1, we reviewed 34 Navy contracts, with PBPs valued at
       $14.5 billion, for compliance with DoD procedures for negotiating and
       administering PBPs. Of the 34 contracts, 26 were for supplies and 8 were for
       services.

                               Table B-2. Total Navy Contracts

        Contract               Function        Product            Contractor             PBP
                                                                                       (millions)

N00019-94-C-00331, 2, 3        Services     Missiles          Raytheon                 $       1.6
                    4
N00019-94-C-0034               Supplies     Aircraft          McDonnell Douglas              94.0
N61339-94-C-00501, 2, 3        Supplies     Simulator         Martin Marietta                25.8
                    1, 2, 3
N68520-94-D-0021               Supplies     Aircraft          Avtel                            0.4
N00019-95-C-00314              Supplies     Aircraft          McDonnell Douglas             723.0
                        1, 3
N00383-95-G-M120               Services     Power Unit        Honeywell                        0.5
N00019-97-C-00271, 2           Supplies     Container         Raytheon                       86.2
                    1, 3, 4
N00019-97-C-0046               Services     Aircraft          McDonnell Douglas             566.7
N00019-97-C-00592              Supplies     Aircraft          McDonnell Douglas             225.9
                    3, 4
N00019-97-C-0136               Supplies     Aircraft          McDonnell Douglas            2,109.1
N65236-97-C-56031, 2, 3        Supplies     Switches          Palomar                          2.4
                    2
N00019-98-C-0114               Supplies     Aircraft          McDonnell Douglas             474.6
N00024-98-C-54091, 2, 3, 4     Supplies     Radar System      Raytheon                         9.9
                    2
N00024-98-C-5435               Supplies     Missiles          Raytheon                       19.8
N00383-98-G-001A1, 2, 3        Supplies     Radar             Raytheon                      210.7
                    1, 2, 3
N66604-98-C-0166               Supplies     Radar             R&F Products                     0.1
N68335-98-C-00421, 2, 3        Services     Aircraft          Palomar                          0.7
                    3, 4
N00019-99-C-1226               Supplies     Aircraft          McDonnell Douglas            8,963.4
N00019-99-D-10161, 2, 3, 4     Services     Missiles          Raytheon                      419.1
                    1, 2, 3
N00024-99-C-5108               Supplies     Radar             Raytheon                       13.6
N00039-99-C-22121, 2, 3        Supplies     Radar             CEA Tech.                        2.7
1
  Inadequate administration.
2
  PCOs did not consult with DCMA and/or DCAA before establishing and valuing events.
3
  Adequate PBPs training not provided.
4
  Contract had progress payments before converting to PBPs.




                                               16
                             Table B-2. Total Navy Contracts (cont’d)
        Contract                 Function      Product            Contractor             PBP
                                                                                       (millions)

N00164-99-C-00791, 2, 3          Supplies    Display Unit     Palomar                         0.6
N00189-99-P-15123, 5             Supplies    Lockers          York                            0.0
                    1, 3
N00383-99-D-020G                 Services    Radar            Raytheon                       19.4
N00019-00-C-01173                Supplies    Computer         Litton                          8.4
                   1, 2, 3
N00019-00-C-0289                 Supplies    Computer         Lockheed Martin                59.1
N00024-00-C-53991, 2, 4          Supplies    Missiles         Raytheon                     231.4
                   1, 2
N00024-00-C-5401                 Services    Phalanx          Raytheon                       57.9
N00024-00-C-54821, 2             Supplies    Missiles         Raytheon                     124.8
                   1, 2
N00024-00-C-5487                 Supplies    Missiles         Raytheon                       77.4
N00039-00-F-31531, 2, 3          Supplies    Computer         Sherikon                        4.9
                   1, 2
N61339-00-G-0001                 Supplies    Simulator        Research Triangle               2.6
N66001-00-C-00082, 3, 6          Services    Software         Rantec                          0.0
                   1, 2, 3
N66001-00-D-5031                 Supplies    Radar            CEA Tech.                       2.3
          Total                                                                        $ 14,539.0
1
  Inadequate administration.
2
  PCOs did not consult with DCMA and/or DCAA before establishing and valuing events.
3
  Adequate PBPs training not provided.
4
  Contract had progress payments before converting to PBPs.
5
  PBPs value was $58,629.
6
  PBPs value was $46,592.




                                                17
Air Force Contracts Reviewed
       As shown in Table 1, we reviewed 18 Air Force contracts, with PBPs valued at
       $19.0 billion, for compliance with DoD procedures for negotiating and
       administering PBPs. Of the 18 contracts, 12 were for supplies and 6 were for
       services.

                             Table B-3. Total Air Force Contracts

        Contract               Function        Product            Contractor             PBP
                                                                                       (millions)

F04701-89-C-00363, 4           Supplies     Imager            Aerojet                  $      40.1
                   4
F33657-94-C-2251               Supplies     Aircraft          McDonnell Douglas             1,618.5
F08626-95-C-0106               Supplies     Tail Kits         Martin Marietta                  14.8
                   4
F19628-95-C-0169               Services     Aircraft          Northrop Grumman               348.0
F34601-95-C-05381, 3           Services     Aircraft          Sabreliner                       10.7
                   4
F19628-96-C-0021               Services     Aircraft          Northrop Grumman               304.6
F33657-96-C-20593              Supplies     Aircraft          McDonnell Douglas            13,590.7
                   3
F33657-97-C-0030               Supplies     Aircraft          Lockheed Martin               1,962.5
F33657-97-C-00313              Services     Technical         Lockheed Martin                285.1
                   1
F41608-97-C-0764               Supplies     Seats             McDonnell Douglas                 1.7
F04606-98-D-00451, 2           Supplies     Transmitters      Harris                            3.3
                   1, 2, 4
F08626-98-C-0018               Supplies     Missiles          Raytheon                       472.5
F08626-98-C-00271, 2           Services     Technical         Raytheon                         37.3
                   4
F19628-98-C-0003               Services     Aircraft          Northrop Grumman               201.4
F33657-98-D-20301, 2, 3        Supplies     Simulator         McDonnell Douglas                39.7
                   1, 2
F04701-99-F-0204               Supplies     Imager            Spectro Astro                   38.3
F04701-00-C-05003, 4           Supplies     Satellites        TRW                              45.5
                   1, 2, 3
F08635-00-C-0029               Supplies     Missiles          McDonnell Douglas               18.7
          Total                                                                        $ 19,033.4
1
  Inadequate administration.
2
  PCOs did not consult with DCMA and/or DCAA before establishing and valuing events.
3
  Adequate PBPs training not provided.
4
  Contract had progress payments before converting to PBPs.




                                               18
Defense Logistics Agency Contracts Reviewed
       As shown in Table 1, we reviewed four Defense Logistics Agency contracts, with
       PBPs valued at $3.9 million, for compliance with DoD procedures for negotiating
       and administering PBPs. Of the four contracts, all were for supplies.

                   Table B-4. Total Defense Logistics Agency Contracts

        Contract             Function          Product            Contractor             PBP
                                                                                       (millions)

SP0920-98-C-00331, 2, 3      Supplies       Valve Assembly         ATI Tools           $       1.7
                   1, 2, 3
SP0430-99-C-5093             Supplies       Cable Terminal         ATI Tools                   0.9
SP0430-99-C-51811, 2, 3      Supplies       Cable Terminal         ATI Tools                   0.7
                   1, 2, 3
SP0430-99-C-5191             Supplies       Cable Terminal         ATI Tools                   0.6
          Total                                                                        $       3.9
1
  Inadequate administration.
2
  PCOs did not consult with DCMA and/or DCAA before establishing and valuing events.
3
  Adequate PBPs training not provided.




                                              19
Appendix C. Questionable Performance-Based
            Payments Administration

            Questionable Performance-Based Payments Administration

   Contract No.     PBPs Value    Contract Award      Event            Event
                                                    Completion       Dependence

DAAH23-98-C-0008       $ 565.8          X
N00019-97-C-0046         566.7          X
N00024-00-C-5399         231.4          X
N00024-00-C-5401          57.9                          X
N61339-00-G-0001            2.6                         X
F41608-97-C-0764            1.7                         X
DAAA09-95-C-0036         243.4                                           X
DAAJ09-95-C-A001        1,909.8                                          X
DAAH01-98-C-0013          51.4                                           X
DAAB07-00-D-E501          88.5                                           X
N61339-94-C-0050          25.8                                           X
N00383-95-G-M120            0.5                                          X
N00383-99-D-020G          19.4                                           X
N00019-00-C-0289          59.1                                           X
F08626-98-C-0018         472.5                                           X
F33657-98-D-2030          39.7                                           X
F04701-99-F-0204          38.3                                           X
F08635-00-C-0029          18.7                                           X
DAAB07-00-C-L995          31.4          X                                X
N00383-98-G-001A         210.7          X                                X
DAAH01-99-C-0085          37.5                          X                X
DAAB07-00-D-H002          23.4                          X                X
N00019-94-C-0033            1.6                         X                X
N68335-98-C-0042            0.7                         X                X
N68520-94-D-0021            0.4                         X                X




                                      20
       Questionable Performance-Based Payments Administration (cont’d)
   Contract No.    PBPs Value    Contract Award       Event         Event
                                                    Completion    Dependence

N00024-98-C-5409           9.9                          X                X
N66604-98-C-0166           0.1                          X                X
N00019-99-D-1016         419.1                          X                X
N00024-99-C-5108          13.6                          X                X
N00024-00-C-5482         124.8                          X                X
N00024-00-C-5487          77.4                          X                X
N00039-00-F-3153           4.9                          X                X
N66001-00-D-5031           2.3                          X                X
F04606-98-D-0045           3.3                          X                X
SP0920-98-C-0033           1.7                          X                X
SP0430-99-C-5093           1.0                          X                X
SP0430-99-C-5181           0.7                          X                X
SP0430-99-C-5191           0.6                          X                X
N00019-97-C-0027          86.2         X                X                X
N65236-97-C-5603           2.4         X                X                X
N00164-99-C-0079           0.6         X                X                X
F34601-95-C-0538          10.7   Advance Payment
N00039-99-C-2212           2.7   Commercial Item
      Totals          $5,460.9         8                24               35




                                     21
Appendix D. Value of Questionable Performance-
            Based Payments Events


                 Value of Questionable Performance-Based
                             Payments Events
                                ($ millions)

               Contract No.          PBPs Value      Questionable     Total
                                                       Events         Events
           DAAH23-98-C-0008             $ 565.8           $    11.3
           N00019-97-C-0046                  566.7              6.7
           N00024-00-C-5399                  231.4              1.3
           Total for Condition 1           1,363.9             19.3        3
            (Condition 1 contained contract award as events.)
           N00024-00-C-5401                   57.9             57.9
           N61339-00-G-0001                    2.6              2.6
           F41608-97-C-0764                    1.7              1.7
           Total for Condition 2              62.2             62.2        3
            (Condition 2 had no event completion criteria.)
           DAAA09-95-C-0036                  243.4            243.4
           DAAJ09-95-C-A001                1,909.8          1,909.8
           DAAH01-98-C-0013                   51.4             51.4
           DAAB07-00-D-E501                   88.5             88.5
           N61339-94-C-0050                   25.8             25.8
           N00383-95-G-M120                    0.5              0.5
           N00383-99-D-020G                   19.4             19.4
           N00019-00-C-0289                   59.1             59.1
           F08626-98-C-0018                  472.5            472.5
           F33657-98-D-2030                   39.7             39.7
           F04701-99-F-0204                   38.3             38.3
           F08635-00-C-0029                   18.7             18.7
           Total for Condition 3           2,967.1          2,967.1       12
            (Condition 3 had no evidence of event dependence.)
           DAAB07-00-C-L995                   31.4             31.4
           N00383-98-G-001A                  210.7            210.7
           Total for Condition 4             242.1            242.1        2
            (Condition 4 was a combination of conditions 1 and 3.)
           DAAH01-99-C-0085                   37.5             37.5
           DAAB07-00-D-H002                   23.4             23.4
           N00019-94-C-0033                    1.6              1.6
           N68335-98-C-0042                    0.7              0.7
           N68520-94-D-0021                    0.4              0.4




                                   22
      Value of Questionable Performance-Based
              Payments Events (cont’d)
                     ($ millions)
    Contract No.          PBPs Value     Questionable        Total
                                           Events            Events
N00024-98-C-5409                     9.9             9.9
N66604-98-C-0166                     0.1             0.1
N00019-99-D-1016                   419.1           419.1
N00024-99-C-5108                    13.6            13.6
N00024-00-C-5482                   124.8           124.8
N00024-00-C-5487                    77.4            77.4
N00039-00-F-3153                     4.9             4.9
N66001-00-D-5031                     2.3             2.3
F04606-98-D-0045                     3.3             3.3
SP0920-98-C-0033                     1.7             1.7
SP0430-99-C-5093                     1.0             1.0
SP0430-99-C-5181                     0.7             0.7
SP0430-99-C-5191                     0.6             0.6
Total for Condition 5              723.0           723.0         18
 (Condition 5 was a combination of conditions 2 and 3.)
N00019-97-C-0027                    86.2            86.2
N65236-97-C-5603                     2.4             2.4
N00164-99-C-0079                     0.6             0.6
Total for Condition 6               89.2            89.2          3
 (Condition 6 contained all conditions.)
F34601-95-C-0538                    10.7             2.2
N00039-99-C-2212                     2.7             2.7
Total-Other                         13.4             4.9          2
 (The last two contracts included an advance payment and a
 commercial item, respectively.)
        Total                  $ 5,460.9        $4,107.8         43




                        23
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations



                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        25
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       27
28
29
30
31
32
33
Team Members

The Contract Management Directorate, Office of the Deputy Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General of
the Department of Defense who contributed to the report are listed below.

Robert K. West
Joseph P. Doyle
Eric L. Lewis
Michael Baker
Marcia L. Kilby
Galfrid S. Orr
Suk Webb
Nephateria N. Moore
Monelle K. Riviere
Edward M. Vogt
Brian R. McNamara
Jeff Brown
Lisa Rose-Pressley
